     ..,~ ,..VIC)

/''''')~S~                DEPARTMENT OF
                          DEPARTMENT OF HEALTH
                                        HEALTH &.
                                               &.. HUMAN SERVICES                                                     Office of
                                                                                                                             of Inspector General
(""4­
\ ~t­
  ~l-
    ~"'J'1t
    .."''¡i.
           ¿"",no
           :.t"",ua
                                                                                                                      Office


                                                                                                                      Washington,
                                                                                                                                          General


                                                                                                                                  D.C. 20201
                                                                                                                      Washington, D.C.




                                                                     OCT
                                                                     OCT -- 99 2008

                                                                                2008

                      TO:               Kerry Weems
                                        Acting Administrator
                                               Administrator




                      FROM:
                                                £" ¿;
                                        Centers for Medicare &

                                                £,,~
                                               E. Vengrin
                                         oseph E. Vengrn
                                                             & Medica.
                                                               Medica·



                                        Deputy Inspector General for Audit Services
                                                                                      rvices
                                                                                      rvices





                      SUBJECT:          Review of
                                               of Ohio Medicaid Long-   Term-Care Payments
                                                                  Long-Term-Care   Payments to
                                                                                             to Two Providers for the
                                        Same Beneficiaries for the Same Dates of
                                                                              of Services From October 1,
                                                                                                       1, 1998,
                                                                                                          1998,
                                        Through September 30,2005
                                        Through September            (A-05-07-00074)
                                                            30,2005 (A-05-07-00074)




                      Attached is an advance copy of
                                                   of our final report on Ohio Medicaid long-term-care payments to
                      two providers for the same beneficiaries for the same dates of of services during October 1,
                                                                                                                1, 1998,
                                                                                                                   1998,
                              September 30,2005.
                      through September   30,2005. We
                                                    We wil
                                                        willissue
                                                             issuethis
                                                                    thisreport
                                                                         reportto
                                                                                tothe
                                                                                   theOhio
                                                                                       Ohio Department
                                                                                             Department of
                                                                                                         of Jobs and
                      Family Services (the State agency) within 55 business days.

                      Pursuant       to sections
                      Pursuant to sections              1903(a)(I)
                                           1903(a)(1) and 1905(a) of 
   and 1905(a) of the Social Security
                                                                                                   Securty Act,
                                                                                                            Act, Federal
                                                                                                                 Federal reimbursement
                                                                                                                         reimbursement at
                      the Federal medical assistance percentage rate is available only for expenditures that constitute
                      payment for    for part
                                           part oror all
                                                       all of
                                                            of the
                                                                the cost
                                                                       costof
                                                                           ofservices
                                                                              servicesfurnished
                                                                                       fuished asasmedical
                                                                                                   medicalassistance
                                                                                                            assistance under
                                                                                                                       under the
                                                                                                                              the approved
                                                                                                                                  approved
                      State plan.

                      The State agency used an automated payment system that calculated claims and made monthly
                      payments to long-term-care providers based on the providers' beneficiary           beneficiaryenrollment
                                                                                                                      enrollment data,
                                                                                                                                  data, the
                                                                                                                                         the
                      number of     of days
                                       days in  in the
                                                    themonth,
                                                           month,and   andthe
                                                                           theproviders'
                                                                                providers'daily
                                                                                           dailyrates.
                                                                                                 rates.During
                                                                                                         Durg the
                                                                                                               theaudit
                                                                                                                    auditperiod
                                                                                                                          periodOctober
                                                                                                                                 October 1, 1,
                      1998,     through
                      1998, through September September        30,
                                              30, 2005, the State    2005, the State agency paid $70,644,566 ($41,157,524 Federal
                                                                  agency


                      share) to 3,100 long-term-care providers (1,550 provider pairs) for services provided to the same
                      beneficiaries for the same dates of service.         service. The
                                                                                    The State
                                                                                         State agency
                                                                                                agency should
                                                                                                        should not
                                                                                                               not have
                                                                                                                    have paid two different
                      providers for services provided to the same beneficiaries     beneficiares for
                                                                                                   for the
                                                                                                       the same
                                                                                                           same dates
                                                                                                                 dates of
                                                                                                                        ofservice
                                                                                                                           service unless one
                      of
                      of  the
                          the providers
                                 providers furnished            services that
                                                 fuished services          that were not reimbursed
                                                                                were not               through the
                                                                                          reimbursed through    the long-term-care
                                                                                                                    long-term-care daily
                                                                                                                                     daily
                      rate.

                      Our objective was to determine whether the State agency's
                                                                        agency's claims
                                                                                  claims for
                                                                                           for payments
                                                                                               payments to
                                                                                                         to long-term-
                                                                                                             long-term­
                                                           to the
                      care providers for services provided to the same
                                                                  same beneficiaries
                                                                       beneficiares for
                                                                                     for the
                                                                                         the same
                                                                                              same dates of
                                                                                                          of service
                      resulted in unallowable payments.

                      Of a judgmental sample of
                      Of                                of 100 providers (50 pairs claiming services for the same beneficiaries
                      for   the
                      for the samesame
                                   dates ofdates
                                            
    of service) that were paid $38,783,184 ($22,595,083 Federal share), the State
                      agency appropriately claimed $20,699,649 ($12,059,616 Federal share) and paid 52 providers for
                      long-term-care services.services. However,
                                                         However, the
                                                                   the State
                                                                       State agency
                                                                             agency inappropriately
                                                                                     inappropriately claimed
                                                                                                     claimed $18,083,535
                                                                                                              $18,083,535
Page 2 – Kerry Weems


($10,535,467 Federal share) and paid 48 providers that did not provide medical assistance to
Medicaid beneficiaries.

Of the unallowable payments totaling $18,083,535 ($10,535,467 Federal share), the State
agency, as of the start of our audit in July 2007, reported and refunded $8,446,697 ($4,921,045
Federal share) through adjustments decreasing its Medicaid claims for prior quarters on the
CMS-64 for the quarter ended June 30, 2005, and had not reported and refunded $9,636,838
($5,614,422 Federal share).

The State agency made the unallowable payments because it did not implement controls within
its automated payment system to identify payments to two providers for services claimed for the
same beneficiaries for the same dates of service. In addition, the State agency’s policies and
procedures for reporting and refunding previous overpayments on the CMS-64 did not ensure the
identification of all the unallowable payments.

On August 1, 2005, the State agency implemented a new payment system that required long-
term-care providers to submit claims for services before receiving medical assistance payments.
Our audit period included payments made through September 30, 2005, and we did not identify
any payments made to two providers for the same beneficiaries for the same dates of service
after July 31, 2005.

We recommend that the State agency refund to the Federal Government $5,614,422 for
unallowable Medicaid reimbursements and review payments totaling $31,861,382 ($18,562,441
Federal share) made to the providers that we did not review and refund to the Federal
Government any unallowable Medicaid reimbursements.

In its written comments, the State agency said that further analysis needed to be completed
before it agreed to a final dollar figure to be refunded to the Federal Government. Regarding the
second recommendation, the State agency said that it has initiated a review similar to the analysis
performed for this report and will refund overpayments to the Federal Government once the
review is completed.

We maintain that our finding and recommendation are valid and that the State agency should
refund to the Federal Government $5,614,422 for unallowable Medicaid reimbursements.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2618
or through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number
A-05-07-00074.


Attachment
(77
.J-              DEPARTMENt OFHEALTH"&HUMAN"SERVICES"
                 DEPARTMENT OFHEALTH"&HU"SERVICES"
                                            OFFICE
                                                                                               OFFICE OF INSPECTOR GENERA
                                                                                                         INSPECTOR GENERAL

                                                                                               OfficeofofAudit
                                                                                               Offce      AuditServices
                                                                                                                Services""
                                                    OCT l' 55 2008
                                                    OCT        2008 .                          Regi.on
                                                                                               Region V               v" "

                                                                                               233 North Michigan Ave. Suite 1360
                                                                                               233 Nort Michi.gan Ave. Suite 1360

                                                                                               Chicago, IL  60601-5~19
 Report Number: A-05-07-00074                                                                  Chicago, IL 60601-5~19

                                                                                               (312) 353-1618
                                                                                                     353-1618
                                                                                               (312)

 Ms. Helen E. Jones-Kelley
 Director
 Ohio  Deparent ofofJob
 Ohio Department      Joband
                           andFamily
                               FamilyServices
                                      Services
                          nd
         Broad Street,
 30 East Broad         32 Floor
               Street, 32nd  Floor
 Columbus,  Ohio   43215-3414
 Columbus, Ohio 43215-3414

 Dear Ms. Jones-Kelley:

 Enclosed is the U.S. Department of Health
 Enclosed is the U.S. Deparment of                       Health     andServices
                                                               and Human Human  (HHS),Services
                                                                                       Offce of 
  (HHS), Office of Inspector
 General (OIG), final report       report entitled
                                              entitled "Review
                                                         "Review of    ofOhio
                                                                         Ohio Medicaid
                                                                                  MedicaidLong-   Long-Term-Care
                                                                                                         Term-Care Payments to
 Two Providers for the Same Beneficiaries for the Same Dates of                                 of Services From October
                                                                                                                  October 1,
                                                                                                                           1, 1998,
                                                                                                                              1998,
 Through        September         30,2005."          We
 Through September 30,2005." We will forward a copy of 
  will  forward     a  copy    of  this   report to the HHS action official
 noted on the following page for               for review and any action  action deemed
                                                                                    deemed necessary.

 The HHS action official   willmake
                  offcial will makefinal
                                      final determination
                                            determination as
                                                           as to
                                                               to actions
                                                                  actions taken
                                                                           taken on
                                                                                  on all
                                                                                      all matters
                                                                                          matters reported.
 We request that  you respond  to this official
             that you respond to this offcial   within 30 days   from  the  date
                                                          days from the date of this letter. Your
                                                                                 of this  letter.
 response should present any comments or additional information that you believe may have a
 bearing on the final determination.

 Pursuant
 Pursuant to theto  the principles
                 principles of     of the   Freedom
                                      the Freedom          ofInformation
                                                  öfInformation Act, 5 U.S.c. § 552,Act,
                                                                                     
                   as amended by
                                                                                         5 U.S.c. § 552,as
 Public Law 104-231, OIG reports generally are made available to the public to the extent the
 information is not subject to     to exemptions
                                      exemptions in       in the
                                                              the Act
                                                                    Act (45(45 CFR
                                                                                 CFR part
                                                                                        part 5).
                                                                                             5). Accordingly, this report
 will be posted on the Internet at http://oig.hhs.gov.

 If you have any questions or comments about this report,report, please do
                                                                        do not hesitate to call me,
                                                                                                me, or
 contact Steve Slamar,
                     Slamar, Audit Manager,
                                   Manager, at (312) 353-7905
                                                      353-7905 or through e-mail at
 Stephen.Slamar@oig.hhs.gov.
 Stephen. Slamar(goig.hhs.      gov. Please
                                     Please refer
                                            refer to report number A-05-07-00074 in all
 correspondence.


                                                             Sincerely,


                                                              ~/ý"



                                                             Marc L.
                                                             Marc  L. Gustafson
                                                             Regional Inspector General
                                                             Regional
                                                               for Audit
                                                              for  Audit Services


  Enclosure
  Enclosure
Page 2 – Ms. Helen E. Jones-Kelley


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



  REVIEW OF OHIO MEDICAID
 LONG-TERM-CARE PAYMENTS
  TO TWO PROVIDERS FOR THE
 SAME BENEFICIARIES FOR THE
SAME DATES OF SERVICES FROM
  OCTOBER 1, 1998, THROUGH
     SEPTEMBER 30, 2005




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-05-07-00074
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Pursuant to 42 CFR § 430.30(c), States report the cost of long-term care furnished to Medicaid
beneficiaries on the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program,” Form CMS-64 (CMS-64). Pursuant to sections 1903(a)(1) and 1905(a) of the Act,
Federal reimbursement at the Federal medical assistance percentage rate is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the approved State plan. If the State determines that in prior periods it claimed
expenditures where no medical assistance was furnished, section 2500.4 of CMS’s “State
Medicaid Manual” provides that a refund of the Federal share of the overpayments can be made
as an adjustment decreasing claims for prior quarters on the current CMS-64.

The Department of Job and Family Services (the State agency) is responsible for the
administration of the Medicaid program in Ohio. The State agency used an automated payment
system that calculated claims and made monthly payments to long-term-care providers based on
the providers’ beneficiary enrollment data, the number of the days in the month, and the
providers’ daily rates. During the audit period October 1, 1998, through September 30, 2005, the
State agency paid $70,644,566 ($41,157,524 Federal share) to 3,100 long-term-care providers
(1,550 provider pairs) for services provided to the same beneficiaries for the same dates of
service.

OBJECTIVE

The audit objective was to determine whether the State agency’s claims for payments to long-
term-care providers for services provided to the same beneficiaries for the same dates of service
resulted in unallowable payments.

SUMMARY OF FINDINGS

Of a judgmental sample of 100 providers (50 pairs claiming services for the same beneficiaries
for the same dates of service) that were paid $38,783,184 ($22,595,083 Federal share), the State
agency appropriately claimed $20,699,649 ($12,059,616 Federal share) and paid 52 providers for
long-term-care services. However, the State agency inappropriately claimed $18,083,535
($10,535,467 Federal share) and paid 48 providers that did not provide medical assistance to
Medicaid beneficiaries.




                                                 i
Of the unallowable payments totaling $18,083,535 ($10,535,467 Federal share), the State
agency, as of the start of our audit in July 2007:

   •   reported and refunded $8,446,697 ($4,921,045 Federal share) through adjustments
       decreasing its Medicaid claims for prior quarters on the CMS-64 for the quarter ended
       June 30, 2005, and

   •   had not reported and refunded $9,636,838 ($5,614,422 Federal share).

The State agency made the unallowable payments because it did not implement controls within
its automated payment system to identify payments to two providers for services claimed for the
same beneficiaries for the same dates of service. In addition, the State agency’s policies and
procedures for reporting and refunding previous overpayments on the CMS-64 did not ensure the
identification of all the unallowable payments.

On August 1, 2005, the State agency implemented a new payment system that required long-
term-care providers to submit claims for services before receiving medical assistance payments.
Our audit period included payments made through September 30, 2005, and we did not identify
any payments made to two providers for the same beneficiaries for the same dates of service
after July 31, 2005.

RECOMMENDATIONS

We recommend that the State agency:

   • refund to the Federal Government $5,614,422 for unallowable Medicaid reimbursements
     and

   • review payments totaling $31,861,382 ($18,562,441 Federal share) made to the providers
     that we did not review and refund to the Federal Government any unallowable Medicaid
     reimbursements.

STATE AGENCY COMMENTS

In its written comments, the State agency said that further analysis needed to be completed
before it would agree to refund any final dollar amount to the Federal Government. Regarding
the second recommendation, the State agency said that it has initiated a review similar to the
analysis performed for this report and will refund any overpayments to the Federal Government
once the review is completed.

The State agency comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that our finding and recommendation are valid and that the State agency should
refund to the Federal Government $5,614,422 for unallowable Medicaid reimbursements.



                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicaid Program.................................................................................................1
              Ohio’s Medicaid Reimbursement for Long-Term Care........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FEDERAL REQUIREMENTS.........................................................................................4

          UNALLOWABLE PAYMENTS .....................................................................................5
              Change in Provider Ownership.............................................................................5
              Beneficiary Relocation..........................................................................................5

          INADEQUATE CONTROLS AND POLICIES AND PROCEDURES..........................6
               Payments to Two Providers ..................................................................................6
               Reporting and Refunding Federal Overpayments.................................................6

          STATE AGENCY’S NEW PAYMENT SYSTEM..........................................................6

          RECOMMENDATIONS..................................................................................................6

          STATE AGENCY COMMENTS.....................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................7

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Pursuant to 42 CFR § 430.30(c), States report the cost of long-term care furnished to Medicaid
beneficiaries on the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program,” Form CMS-64 (CMS-64). Pursuant to sections 1903(a)(1) and 1905(a) of the Act,
Federal reimbursement at the Federal medical assistance percentage (FMAP) rate 1 is available
only for expenditures that constitute payment for part or all of the cost of services furnished as
medical assistance under the approved State plan. If the State determines that in prior periods it
claimed expenditures where no medical assistance was furnished, section 2500.4 of CMS’s
“State Medicaid Manual” (Pub. 45) provides that a refund of the Federal share of the
overpayment can be made as an adjustment decreasing claims for prior quarters on the current
CMS-64. Pursuant to 42 CFR § 433.318, a State is obligated to refund the Federal share unless
the overpayment constitutes a debt that has been discharged in bankruptcy or a debt that cannot
be collected under State law because the provider is out of business.

Ohio’s Medicaid Reimbursement for Long-Term Care

The Department of Job and Family Services (the State agency) is responsible for the
administration of the Medicaid program in Ohio. For the majority of our audit period, the State
agency used an automated payment system to reimburse long-term-care providers for their costs
of furnishing medical assistance to Medicaid beneficiaries. Each month, the State agency’s
automated payment system calculated claims and paid providers for services provided to
Medicaid beneficiaries based on the providers’ enrollment data, the number of days in the month,
and the providers’ daily rates.

During the audit period October 1, 1998, through September 30, 2005, the State agency paid
$70,644,566 ($41,157,524 Federal share 2 ) to 3,100 long-term-care providers (1,550 provider
pairs) for services claimed by two different providers for the same beneficiaries for the same
1
 The Medicaid statute and regulations at 42 CFR § 433.10 provide for payments to States for part of their medical
assistance expenditures on the basis of an FMAP determined annually by the formula described in section 1905(b)
of the Act.
2
 We calculated the Federal share by using 58.26 percent, which was the lowest FMAP in effect in Ohio during the
audit period.



                                                         1
dates of service. The State agency should not have paid two different providers for services
provided to the same beneficiaries for the same dates of service unless one of the providers
furnished services that were not reimbursed through the long-term-care daily rate. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The audit objective was to determine whether the State agency’s claims for payments to long-
term-care providers for services provided to the same beneficiaries for the same dates of service
resulted in unallowable payments.

Scope

Of the $70,644,566 in payments made to 3,100 long-term-care providers (1,550 provider pairs),
we selected payments totaling $38,783,184 (55 percent) made to 100 providers 4 for the audit
period October 1, 1998, through September 30, 2005.

Our internal control review was limited to obtaining an understanding of the policies and
procedures that the State agency used to make long-term-care provider payments, identify
unallowable payments, and report long-term-care expenditures and decreasing adjustments on
the CMS-64 through September 30, 2005.

We relied on the State agency’s determination of allowable and unallowable payments. We did
not review beneficiary admission and discharge records maintained by the long-term-care
providers.

We conducted our field work at the State agency’s office in Columbus, Ohio, from July through
November 2007.

Methodology

To accomplish our audit objective we:

    •    reviewed applicable Federal laws and regulations;

    •    interviewed the State agency official responsible for monitoring long-term-care payments
         and reporting expenditures on the CMS-64;

    •    gained an understanding of the State agency’s payments and adjustments for long-term
         care for October 1, 1998, through September 30, 2005;

3
 The State’s long-term-care daily rate did not include reimbursement for certain therapy services or items of durable
medical equipment, so payments for those services and equipment to other providers on the same dates of service
could be appropriate.
4
 The 100 providers represented the 50 provider pairs with the highest combined reimbursement for services
provided to the same beneficiaries for the same dates of services.


                                                          2
   •   quantified the Medicaid payments to long-term-care providers for services claimed for
       the same beneficiaries for the same dates of service by:

           o extracting payment information from the Medicaid Statistical Information System
             for the period October 1, 1998, through September 30, 2005, and

           o creating a database that (1) contained 3,100 providers that were paid $70,644,566
             ($41,157,524 Federal share) for 19,738 claims for the same beneficiaries for the
             same dates of service, (2) excluded Medicaid payments for Medicare
             coinsurances and deductibles, and (3) included net claim payments per
             beneficiary for each provider by offsetting paid claim amounts with related claim
             adjustment amounts;

   • judgmentally selected and reviewed 10,802 claims totaling $38,783,184 ($22,595,083
     Federal share) made to 100 providers from the database and requested the State agency to
     identify:

           ο the providers that actually furnished allowable services relative to the
             reimbursements,

           ο the providers that received inappropriate reimbursements because no medical
             assistance was furnished, and

           ο any adjustments decreasing claims for prior quarters that the State agency made
             on the CMS-64; and

   •   determined that the unallowable payments did not constitute debts that had been
       discharged in bankruptcy or debts that could not be collected under State law because the
       provider was out of business.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of a judgmental sample of 100 providers (50 pairs claiming services for the same beneficiaries
for the same dates of service) that were paid $38,783,184 ($22,595,083 Federal share), the State
agency appropriately claimed $20,699,649 ($12,059,616 Federal share) and paid 52 providers for
services to Medicaid beneficiaries receiving long-term care. Of these 52 providers, 2 claimed
payment only for items or services not covered under the long-term-care rate. However, the
State agency inappropriately claimed $18,083,535 ($10,535,467 Federal share) and paid the
long-term-care daily rate amount to 48 providers that did not provide medical assistance to
Medicaid beneficiaries.




                                                3
Of the unallowable payments totaling $18,083,535 ($10,535,467 Federal share), the State
agency, as of the start of our audit in July 2007:

   •   reported and refunded $8,446,697 ($4,921,045 Federal share) through adjustments
       decreasing its Medicaid claims for prior quarters on the CMS-64 for the quarter ended
       June 30, 2005, and

   •   had not reported and refunded $9,636,838 ($5,614,422 Federal share).

The State agency made the unallowable payments because it did not implement controls within
its automated payment system to identify payments to two providers for services provided to the
same beneficiaries for the same dates of service. In addition, the State agency’s policies and
procedures for reporting and refunding previous overpayments on the CMS-64 did not ensure the
identification of all the unallowable payments.

On August 1, 2005, the State agency implemented a new payment system that required long-
term-care providers to submit claims for services before receiving medical assistance payments.

FEDERAL REQUIREMENTS

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement at the FMAP rate is available
only for amounts expended as medical assistance under an approved Medicaid State plan.
Section 1905(a) of the Act defines medical assistance, in general, as payment of part or all of the
cost of the listed care and services when furnished to eligible individuals. Medicaid regulations
at 42 CFR § 400.203 define the term “services” to refer to the types of medical assistance
specified in section 1905(a) and defined in subpart A of the regulations at 42 CFR part 440,
including nursing facility services. The Departmental Appeals Board (DAB) has held that if the
State agency has claimed and received the Federal share based on provider payments that do not
constitute medical assistance under the State plan, the State agency has received an overpayment
of Federal funds. (See, for example, Washington Dep’t. of Soc. and Health Serv., DAB No. 645
(1985).)

Section 1903(d)(2)(A) of the Act and implementing regulations at 42 CFR § 433.320 provide
that quarterly Federal Medicaid payments to the State must be reduced to reflect prior
overpayments. Pursuant to these regulations and section 2500.4 of the CMS “State Medicaid
Manual,” the State agency must report the overpayment amounts on the CMS-64. Pursuant to
42 CFR § 433.318, a State is obligated to refund the Federal share of an overpayment unless the
overpayment constitutes a debt that has been discharged in bankruptcy or a debt that cannot be
collected under State law because the provider is out of business.




                                                 4
UNALLOWABLE PAYMENTS

The State agency inappropriately claimed $18,083,535 ($10,535,467 Federal share) and paid 48
providers for 4,896 claims for services that were not provided to Medicaid beneficiaries. The
payments were made due to the following:

     •   40 providers received $15,740,998 ($9,170,705 Federal share) because provider
         ownership changes were not updated in a timely manner within the State agency’s
         automated payment system and

     •   8 providers received $2,342,537 ($1,364,762 Federal share) because beneficiaries
         relocated to a different long-term-care provider but the changes were not reflected in the
         previous providers’ enrollment data within the State agency’s automated payment
         system.

As of the start of our audit in July 2007, the State agency had reported and refunded $8,446,697
($4,921,045 Federal share) through adjustments decreasing its Medicaid claims for prior quarters
on the CMS-64 for the quarter that ended June 30, 2005. The remaining $9,636,838 ($5,614,422
Federal share) had not been reported and refunded.

Change in Provider Ownership

The providers did not notify the State agency in a timely manner when long-term-care provider
ownership changed. As a result, the State agency’s automated payment system continued to
calculate claims and made payments to the previous owners even though they no longer operated
the facilities and did not provide medical assistance to Medicaid beneficiaries. The unallowable
payments continued until the enrollment data from the previous owners were removed from the
system and the new owners’ data were entered. Once the new owners’ data were entered, the
State agency made retroactive payments to the new owners but did not always collect the
payments made to the previous owners. As a result, the State agency reimbursed the previous
and new providers for the same beneficiaries for the same dates of service.

Beneficiary Relocation

The providers did not notify the State agency in a timely manner when Medicaid beneficiaries
relocated to different providers. The State agency continued to pay providers until it received
notification that beneficiaries should be removed from the providers’ enrollment data in the
payment system. Meanwhile, the new providers updated their enrollment data to begin receiving
payments for the beneficiaries’ long-term-care services. Until the previous providers notified the
State agency to remove the relocated beneficiaries from the providers’ enrollment data, monthly
payments continued to be made automatically to the previous and new providers on behalf of the
same beneficiaries for the same dates of service.




                                                 5
INADEQUATE CONTROLS AND POLICIES AND PROCEDURES

Payments to Two Providers

The State agency did not implement controls within the automated payment system to identify
payments to two different providers for the same services claimed for the same beneficiaries for
the same dates of service. The State agency’s system automatically issued monthly payments to
providers based on their enrollment data and relied on the providers to maintain and update their
enrollment data in a timely and accurate manner.

Reporting and Refunding Federal Overpayments

The State agency’s policies and procedures for reporting and refunding previous overpayments
on the CMS-64 did not ensure the identification of all the unallowable payments. Of the 4,896
unallowable payments we identified, the State agency did not identify 2,495 payments and report
the overpayments totaling $5,614,422 (Federal share) on the CMS-64. Since the State agency’s
policies and procedures did not identify all unallowable payments, there may be other
overpayments that have not been refunded within the $31,861,382 ($18,562,441 Federal share)
that we did not review.

STATE AGENCY’S NEW PAYMENT SYSTEM

On August 1, 2005, the State agency implemented a new payment system that required long-
term-care providers to submit claims for services before receiving medical assistance payments.
Our audit period included payments made through September 30, 2005, and we did not identify
any payments made to two providers for the same beneficiaries for the same dates of service
after July 31, 2005.

RECOMMENDATIONS

We recommend that the State agency:

   • refund to the Federal Government $5,614,422 for unallowable Medicaid reimbursements
     and

   • review payments totaling $31,861,382 ($18,562,441 Federal share) made to the providers
     that we did not review and refund to the Federal Government any unallowable Medicaid
     reimbursements.

STATE AGENCY COMMENTS

In its written comments, the State agency said that further analysis needed to be completed
before it would agree to refund any final dollar amount to the Federal Government. The State
agency indicated that it needed to determine if collection of the overpayments is legally possible.
The State would first determine if the provider is bankrupt or out of business. If the provider is
not, the State would then determine whether a State court decision bars the State’s ability to


                                                 6
collect the overpayments. Regarding the second recommendation, the State agency said that it
has initiated a review similar to the analysis performed for this report and will refund any
overpayments to the Federal Government once the review is completed.

The State agency comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that our finding and recommendation are valid and that the State agency should
refund to the Federal Government $5,614,422 for unallowable Medicaid reimbursements.

We relied on the State agency’s determination of allowable and unallowable payments made to
provider pairs. The State did not provide any indication that the unallowable payments it
identified were uncollectable because the provider was bankrupt or out of business in accordance
with 42 CFR § 433.318. Therefore, we have no basis to conclude that these overpayments are
debts that the State need not refund. The State court decision that may bar the State agency from
attempting to collect a Medicaid overpayment from a provider would not bar the State agency
from refunding the Federal share of an overpayment as required by Medicaid regulations.
Pursuant to 42 CFR § 433.312, the State must refund the Federal share of overpayments at the
end of the 60-day period following discovery whether or not the State has recovered the
overpayment from the provider. If a provider is determined to be bankrupt or out of business
after the 60-day period ends, 42 CFR § 433.320(g) provides that the State may reclaim the
amount of the Federal share of any unrecovered overpayment if the Medicaid agency submits the
necessary documentation to CMS.




                                                7
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
